- "




                                        0' '





                                                                    FilE COpy





                                 STANARIZE FORHl\TS


                                     P I LOT lEST



                                       RERT





           silvrCI.r




            "Ja


      OFFICE OF INSPICTOR a.N8RAL
        OFFICE         OF   ANAL YSIS AND INSPECT/. ONS


                                                          APR I L   1987
                                                    " , 





                 Office of Inspector General

 The mission of the Office of Inspector General (OIG) is to

promote the efficiency, effectiveness and integrity    of

programs in the United Stat s Department of Health and Human

Services (HHS). It does this by developing methods to detect
and prevent fraud, waste and                        abuse.
                                        Created by statute in
1976, the Ihspector General keeps both the Secretary and the

Congress fully and currently informed about programs or

management problems and recommends corrective action. 

                                                          The
OIG performs its mission by conducting audits, investigations

and inspections  wi th approximately 1, 200 staff strategically

located around the country.
               Office of Analysis and Inspections

This report is produced by the Office of Analysis and

Inspections (OAI), one of the three major offices

OIG. The other two are the Office of Audi t and   wi thin the

                                                the Office of
Investigations. OAI conducts inspections which  are
typically, short-term studies designed to determine program

effectiveness, efficiency and vulnerability to fraud or

abuse.
                                         This Report

This report is entitled " StandardizedFormats Pilot Test.
It is based on a test conducted by seven States and the
District of Columbia to determine the feasibili ty,
                                                    costs and
benefits of using standardized data extraction formats
                                                        for
computer matching of State assistance, compensation or wage

data.
STANDARDIZED FORMTS

    PILOT TEST


      REPORT




   APRIL 1987
  CONTROL NUMBER:

   P-00-86-00083




  Office of Analysis and Inspections

  Office of Inspector General

  Department of Health and Human Services

      . . ':--'
                   t-
                        '-""       :.- ----
                               " ...-.        .
                                                  ...- L"-C_--. 1; _
                                                                    ...--....,   ...   "'_   "''-   ''''''''- '''''- '''   ..''"""''   ''''   '''''    ---''--   - - .-- '---' ---"'   ' ..   - -




                                                                                                                                                      Page
                                                         TABLE OF CONTENTS

EXECUTIVE SUMRY
ACKNOWLEDGEMENTS

ABBREVIATLONS                                                                                                                                         1ii
BACKGROUND

OBJECTIVES AND METHODOLOGY

PART I            SUMRY FINDINGS
                  Matches Performed

                  Match Process

                        Conversion
                        Data Elements

                        Match Criteria

                        Screening /Follow-
                  State Reports

                   Costs
                    Savings
                    State Evaluations

                  Conclusions
PART II
          STATE-BY-STATE TEST FINDINGS


                  California
                  District of Columbia

                  Illinois
                  New Hampshire

                  New Jersey

                  Oklahoma
                  Virginia
                  Wisconsin
APPENDIX A.	            Standardized Formats
                        Data Elements Added

                        Data Elements Not Used

                        Summary of Match Results

                        Summary of Costs

                        Test Reporting Forms

                        state proj ect                                  Leaders
     ,\                   ...   - _._.
                                         _n_
                                               ._--   ..        - - ."'-_'_   '''--''   ''-   ''''' -''-   -'_   ._-   ---




,l
                                               EXECUT IVE   SUMRY
           The Pr  sident' s Council on Integrity and Efficiency (PCIE)
           established the Long Term Computer Matching Project, cochaired
           by the Inspectors General for the Department of Labor (DOL)
           and the Department of Heal th and Human Services (HHS), to
           facili tate the use of computer matching in Government-assisted
           programs. The proj ect identified the lack of consistent data
           elements and record formats as major impediments to efficient
           and effective matching. To address this problem , project
           staff developed standardized matching formats for assistance
           programs , wage/earnings and compensation/benefits.
          . Under the guidance of the HHS Inspector General , eight

            jurisdictions tested the formats to determine the usefulness

            and benefits of standardized formats in computer matching.

           Findings
           o States established that it is technically feasible and

             useful to use standardized formats to conduct computer

             matches. .
           o States concluded that standardized formats are more

             efficient when used in both the input and output stages of

             the match process.




             fOllow-   up.
           o The standardized formats and related data elements provided

             workers with a more comprehensive report for review and



           o State reports identified $1. 1 million in savings from the
             tests.  The savings are possible because the standardized
             formats will enable States to perform more matches.
             Technical savings will also result from the elimination of
             the need to reprogram for each match performed.

           During the test , The Deficit Reduction Act (DEFRA) of 1984 was
           enacted requiring State Agencies that administer the Aid to
           Families with Dependent Children (AFDC), Adult Assistance
           Medicaid , Food Stamp and the Unemployment Compensation
           programs to develop income and eligibili ty verification
           provisions. Among the provisions in DEFRA , State agencies are
           required to " adhere to standardized formats and
           procedures. . . to exchange information to establish and verify
           eligibility.      The standardized formats , as revised and
           approved by the test jurisdictions, were forwarded to the
           interagency' Payment Integrity Task Force established to
           coordinate the implementation of the income and eligibili
           verification provisions.

                     ACKNOWLEDGMENTS

The standardized formats pilot tests were the result of
extensive work by a Federal/State work group. Their
continuing interest and contributions have made the
standardized formats an excellent product. Al though many
have been involved in the extensive acti vi ties surrounding
these pilot tests, I would like to commend the following
State personnel: Clayton Vickland, District of Columbia
Department of Human Services: Sally Ferguson, Illinois
Department of Public Aid: W. Richard Burrows and Francis
Brighton, New Hampshire Division of Human Services: John
Fedynyshyn and Jerry Powell, New Jersey Department of Human
Services: William Long, Oklahoma Department of Human
Services: and Kenneth Shimota, Wisconsin Department of
Health and Social Services. I would like to give special
acknowledgment to Karl Hauser of the Virginia Department of
Social Services who not only provided the leadership to
Virginia I s test of the formats, but also assisted with the
ini tial development of the draft formats and assisted with
the technical discussions in many meetings and workshops.
Among the Federal work group staff, Doug Hunt, Office of
Inspector General, National Aeronautics and Space
Administration, chaired the work group that developed the
draft standardized formats and provided technical support to
my staff and the States during the pilot  test.   Finally,
from my staff I would like to thank Jane Tebbutt and Elsie
Chaisson who provided the leadership in conducting the pilot
test, Edward Meyers who provided technical support and Jane
Karl and Retina Thomas who provided typing support.




                              Richard P. Kusserow

                              Inspector General

                              Department of Health

                                and Human Services

.,          . -. -. - - - ,-:.-.. .""--
                                          _'''n. -
                                                     ,.- ...   ,.._ ..,.._". .   _,--   ,--
                                                                                              -'" 4-. ,
                                                                                                          ,,- ,""..'   '- - . .. ' ''''''
                                                                                                                                            'c._
                                                                                                                                                   :'.   ,- "   ' - '''"_.--,,. .;"-,,   ._---   .- ,-O­
                                                                                                                                                                                                           ;.,--.   - - . , .- .-. _.- - - ._'. - . -   .,   - -.




                                                                                              ABBREVIATIONS

     state
                                     Alabama
                                     California
                                     District of Columbia

                                      Delaware
                                      Illinois
                                      Indiana
                                     Iowa
                                     Maryl and
                                     Minnesota
                                     Mississippi
                                     New Hampshire

                                     New Jersey

                                     New York

                                     North Carolina

                                     Okl ahoma
     Penn                             pennsyl vania
                                     South Carolina
                                     Texas
                                     Virginia
                                     Vermont
                                     Wisconsin

     Other
     AABD                            Aid to Aged , Blind and D1sabled
     AFDC                            Aid to Families with Dependent Children
     CSE                             Child Support Enforcement
     DOB                             Date of Birth
                                     Food Stamp.
                                     General Assistance (State Funds only)
     GPA                             General Public Assistance (State Funds only)
                                     Match Record
     N/A                             Information is not Available
                                     Public Assistance
     PC IE
                          President' s Council on Integrity and Efficiency
     SESA                            State Employment Security Agency
     SSN                             Social Security Number
     UCB                             Unemployment Compensation Benefits




                                                                                                            iii

. ---   ,.   -'.
                   N-
                        ---. " ----    ..-   ----..""--   --_. ------ .   -'-'- --   .._-
                                                                                            .o .
                                                                                                   ("         - - .._-   --- --- --__   -----_
----   ""_-   -_.




                        BACKGROUN

                        In 1981 , President Reagan created the President' s Council on

                        Integri ty and Efficiency (PCIE) to coordinate Government-wide

                        efforts " to fight fraud , waste and abuse. One of the first

                        proj ects established by the PCIE was the Long Term Computer

                        Matching Project which was created to facilitate the use of 

                        computer matching in Government-assisted programs. The Project

                        cochaired by the Inspectors General of the Department of Labor

                        and the Department of Health and Human Services, identified the

                        lack of consistent data elements and record formats as major

                        impediments to efficient and effective matching.


                        To address this problem , proj ect staff developed standardized
                        matching formats in four target           assistance programs
                        wage/earnings , compensation/benefits , and medical payments.
                                                                                             areas:
                        Standardized formats are predetermined computer record layouts
                        and data elements to be used when State agencies participate in
                        computer matches. The project staff believed that use of the
                        formats would benefit matching efforts and accrue savings through
                        the:
                                                elimination of costs to reprogram data extraction

                                                software on a request-by-request basis;
                                                reduction of turnaround time for requested matches; and

                                                improvement of quality and reliability of match
                                                resul ts, yielding more effective fOllow- up.

                        In June 1983 , the HHS Inspector General , at the direction of the
                        PCIE , solicited State proposals for cooperative agreements to
                        test the formats. In response , seven States (California
                        Illinois, New Hampshire , New Jersey, Oklahoma , Virginia , and
                        Wisconsin) and the District of Columbia submitted proposals to
                        test the assistance programs , wage/earnings , and compensation
                        /benefits formats.   (No proposals were received to test the
                        medical payments format; action on it was therefore deferred.

                        During the test , Publ1c Law 98-369                                             The Deficit Reduction Act"
                        was enacted , including Income and Eligibil1 ty Verification
                        provisions affecting State agencies administering Aid to Families
                        with Dependent Children , Medicaid, Food Stamp, Unemployment
                        Insurance and Adul t Assistance (in the territories) programs.
                        Among the provisions , these State agencies are required to
                        " . . . adhere to standardized formats and procedures... to exchange
                        information to establish or verify eligibility.       The formats as
                        tested , revised and approved by the test jurisdictions were

                                       Referred to later in this report as match records (MR) 1 , 2

                                      and 3.
                  --_ ...-.._~~~   ).
                                   - .._,--   .... , .   .__:.;,   -- --'''
                                                                              '_h- -U''__'
                                                                                             '''-'   --'   '-'   ---
                                                                                                                       ''_n'''_-
                                                                                                                                   .'   ... , .   ....   ...   .,. -.. . ,
                                                                                                                                                                             o._-
                                                                                                                                                                                    - _ -,. _. -
                                                                                                                                                                                       O!,




forwarded to the interagency Payment Integrity Task Force

established to coordinate implementation of these provisions, for

their use in providing guidelines to States.

This report presents the final results and evaluations of the

eight p!lot test jurisdictions.



OBJECTIVES AND METHODOLOGY


The standardized formats field test was conducted to determine

the following:
          The usefulness of the formats in increasing the

          efficiency of 1nter-jurisdictional and intra-

          jurisdictional matches.


          The usefulness of those data elements considered
          cri tical or extremely important.
          The. costs associated with implementing and using the
          formats.
          The savings realized in fOllow- up/verification efforts
          through use of additional data elements and special
          flags.
The test jurisdictions (hereafter referred to as test states)

were all public assistance                               agencies.
                                       While the test States had
flexibili ty toperform matches with other agencies either wi thin
or outside of their own States , they were required to perform and

report on the tests in four stages:

          First ,States were to create tape files in standardized
          format or develop a computer program to read a tape
          file in standardized format " and report information on
          resources used and costs incurred to create files and
          on data elements added or not used.

          Second , States were to use the standardized format tape
          file in a computer match and report on the methodology,
          resources and costs for this stage.
          Third, States were to perform fOllow- up and

          verification of matched records (hereafter referred to

          as "   hits  States were allowed to prioritize or
          review a sample of hits to fulf111 the test

          requirements. States were to report the methodology
          for prioritization , the total number of hits reviewed

          costs for fOllow-up and verification , total amount of

. ' " ,- - - -- ",_ ..,
                          _n_
                                _"""-''"
                                           .I­
                                                 ,._   ""-   ..,--:.:   ..,-"-   -",""       --,,,,,   ..""-..-      -'''   ''-''--- -'''   ---   ';'   ..- -_."_.




                                           overpayments detected ,                       amounts recovered and proj ected
                                           savings.
                                           Finally, states were to report their evaluation of the

                                           effects of the formats on the computer matching

                                           process.
       Attachment F contains the OIG Forms I    , and III whiqh were
       used in the reports required for the first three stages.
                                                                                             , II
       During the tests , four workshops were held with test states to
       discuss progress, and work out problems with the             These                                         formats.
       workshops included representatives of the Departments of Health
       and Human Services , Agriculture , and Labor program offices.
       addi tion , several site visits were made to test States to provide



       formats.
       technical assistance. Final1y, a team of Federal and State
       representatives , including the test States and Federal program
       managers , met to reach agreement on a final set of standardized


                                                   PART I -                 SUMRX OF     STATE TEST FINDINGS
       MATCHES PERFORMED

       The final set of standardized formats represent the experiences

       and recommendations of the test States. To test the formats

       States performed a total of 34 matches including 10 intra-

       jurisdictional and 24 inter-jurisdictional matches.

       (Additionally, the District of Columbia performed 11 matches

       under the cooperative agreement in which the standardized formats

       were not used. These nonstandardized format matches were

       performed because agreements could not be reached on approaches

       to use of the formats.    States were particularly interested in

       performing inter- jurisdictional matches because the ease with

       which applicants and recipients travel between States increases

       the potential for payment errors.

       The States tested the formats in the following number of matches:
       assistance programs format in 1.6 matches performed, wage/earnings
       format in 5 matches and compensation/benefits format in 13
       matches. Table I displays the types of matches performed and
       participating States.
                      - .   !.__ ._--- --_ :....__.   ---. _._-     ,---_ .._-   --- ----     -"---.-   .-..--.. .- -   ..--   -:-.,..




                                              TABLE I
                             MATCHES PERFbRMED


                                           TYPE MATCH

Test         Publ1c                       Wage                    Unemployment                other
State        Assistance                                           Compensation
                                                                  Benef1 ts





                                                                                            Medi-Cal
                                                                                            Birth Index

                                                                                            . Death Index
                                                                                            . Child Support
             DE *                   DE *                          DE *
             Penn                   Penn *                        Penn *
                                    SC *                          SC *
                                    MD *                          MD *
                                    NC *                          NC *




                                    Penn



             IA **                                                MN **
                                                                  Internet **


   Standardized formats were not used for these 11 matches because
   agreements could not be reached on their use.
** Two matches each were performed with IA , MN and Internet.

.\                    ..- .:..- ' . '__   -'-   _.'-          \._-
                                                       ---' "...     _..   _..-'.._-   -- -   ... _..   '._
                                                                                                              ''__c.
                                                                                                                       ..- ._._ ".-__
                                                                                                                                        .J..
                                                                                                                                               .._-   -.-- ---   -'-   .-. : -   -_.. - .! -




     MATCH PROCESS

     Conversion
     Two procedures were used to perform computer matches using
     standardized formats: (1) both agencies involved in the match
     created Standardized Formats tapes and matched them; ( 2) or the
     agency executing the match developed a program to read a tape file
     in a standardized           format. All test
                                           States created input tapes in
     the assistance programs format. To accomplish this task , New
     Hampshire , Illinois and Oklahoma modif ed existing computer
     programs while Virginia , New Jersey , Wisconsin , California (only
     Santa Clara county records) and the District of Columbia developed
     new programs. The participating State public assistance agencies
     (Pennsylvania, New York , Alabama , Texas , Iowa and Mississippi)
     also created tapes in the assistance programs format. ' Vermont
     New Hampshire and Minnesota EmploYment Services Agencies developed
     matching programs to read input data in the assistance program
     format and generate output in the compensation/benefit format.
     Illinois and Texas Public Assistance Agencies and Pennsylvania
     EmploYment Security Agency developed data extraction and matching
     programs to read input data in standardized formats and generate
     output data in the compensation/benefits and wage/earnings
     formats.
     Data Elements

     The States used most data elements prescribed by the assistance
     programs format (MR                  1).
                               For additional information , refer to
     Appendix A. Fifteen data elements were not used because (1) the
     data were not available or (2) the data elements were replaced by
     data that produced better match                                       results.
     were added by States                 to:    Fifty-one data elements
                                ( 1) provide more personal
     characteristics information about individuals included in the
     match , (2) enable States to use a single tape to perform matches
     of individuals who simultaneously received benefits from multiple
     programs , and (3) assist States to screen hits so that only
     aberrant situations would be referred for fOllow-up.

        tes were specifically asked to assess the usefulness of the

      SSN Verification " and " Error Prone " flags. The SSN flag was
     designed to eliminate the need to re- verify SSNs. The error prone
     flag was designed to assist States to identify problem cases and
     set priorities for fOllow-up. Although six States used the " SSN
     Verification Flag , only Illinois provided comments,. stating that
     the " Flag " was used to refer SSN discrepancies for fOllow-
     workshop discussions test States pointed out that the " SSN
                                                                        (In                                                                                      up.
     Verification Flag " would be more useful if the source used to
     verify the SSN were indicated.     Four States used the " Error Prone
     Flag, " but only Oklahoma provided comments , stating that this flag
     was used as a   . fraud indicator.(In workshop discussions test
     States requested changing the " Error Prone Flag " to a " Priority
. .              q /

                                                                      f,.




      FOllow-Up Flag " to be used to set priori ties for case reviews.

      For more information , refer to Appendices A , B , and C.


      Match Criteria


      Match criteria are the data elements used in a match to identify

      information from separate data bases which refer to the same

      person. All states  used the Social Security Number (SSN) as the
      key criterion or identifier: five States used SSN and name; and

      three States used the SSN , name and date of birth
      II displays criteria used to execute matches.

                                                                 (DOB).
                                                                 Table

                                        TABLE II

                        MATCH CRITERIA USED TO EXECUTE MATCHES

      Match
      Cri teria
       SSN
      . Name
        DOB
      . Address
       District
        Attorney
        Number

       Sex

       Benefi­
        ciary ID

         Number
      . Case Number

      Screenin Follow-u
      Most test States manually sorted match hits to determine if the
      match was completed accurately, and if hits identified potential
      errors.               States prioritized hits based on the validity of the
      match hit either to eliminate nonmatched cases from the review

      and fOllow-up process or to alert workers to cases requiring

      prompt fOllow-up. Time spent preparing cases for fOl1ow­

      reviews varied between 
    tates.           For example, New Jersey automated
      the process and spent only 2 hours batching 580 printouts to send

      to workers. Wisconsin , however , spent 8 staff days manually

      screening and prioritizing 476 hits.


      Only two States reported time spent on follow-up activities. New
      Hampshire workers spent 5. 7 staff days resolving 86 hits;
      Illinois workers spent 191. 5 staff days reviewing 373 hits.
      Illinois reported that the absence of data on " monthly payment

                                       - -- -- .-.-- -              .-. _._   -_.   --_._   ,,.   ,--   .._. '   -_"_
                                                         -" _'n ­




amount" and " dateof elig1b11i ty " from the California records
resul ted inan unusual amount of time to make collateral contacts
to verify match information.

STATE REPORTS


States were asked to provide information on the total number of

match hits , referred for fOllow- up and the outcome of reviews

i. e. , payments reduced or increased, cases closed or showing
evidence to support a question of  fraud).   States were also asked
to (1) identify and analyze costs associated with implementing
the formats , conducting matches and resolv1ng match hits and (2)
identify and discuss actual and proj ected savings realized from
use of the formats. Most of the States were unable to provide

all requested information , particularly in the area of fOllow-up

costs and fraud case referrals. For addi tional information refer

to Appendices D and 


Costs
Costs were categorized as technical (conversion and matching) and
fOllow- up an are shown as reported by each test State in Part II
and in Appendix D. California , Virginia and New Jersey did not
itemize proj ect costs and consequently could not identify
conversion costs. The District of Columbia reported cost
estimates based on previous matching experiences. Illinois

Oklahoma , New Hampshire and Wisconsin reported conversion costs
which included developing and modifying programs and creating

tapes to execute matches. These costs ranged from $1 000 for
Illinois to $3 727 for New Hampshire. Wisconsin , New Jersey,

District of Columbia , New Hampshire , Oklahoma and Wisconsin also

reported conversion costs incurred by the agency providing

information.
Costs per match were reported by all States and ranged from $46

for Wisconsin to $8, 550 for New Jersey. Both California and the

District of Columbia provided estimated cost
and Wisconsin absorbed the costs for the matches they performed

                                                                    figures. Illinois
for each other.


All States except New Jersey and the District of Columbia
reported costs to manually review , sort and prioritize hits. New
Jersey has automated this process. The District of Columbia does
not collect this information. Cost varied between States. For
example , New Hampshire spent $34 to review and prioritize 865
hits while Illinois spent $1 270 to review and prioritize 1 053
hits. New Hampshire and Illinois are the only States that
reported fOllow-up costs , New Hampshire reported $372 and
Illinois reported costs of $16 360. All   other States did not
r.eport costs because the data were not collected.
Savings
Test States cited two types of savings (1) technical savings due
to elimination of need to develop new software for each match
and (2) savings from the actual matches. For technical savings
-=------
   ' -   -.. ,- '                          -.




                    per match Wisconsin reported $1 500; Illinois, over $2 000; and

                    Oklahoma $5    000. The other States reported that they would
                    realize savings but did not estimate a dollar figure.
                    Savings from matches are monthly erroneous payments identified at
                    the point the error is verified, times 12 months. All States
                    except Cal1forn1a reported savings real1zed from matches.

                    California did not find any cases with errors. All savings

                    except the District of Columbia s reflect the monthly amount of

                    the erroneous payment at the time the discrepancy was verified
                    and do not include a past erroneous payments. The District of
                    Columbia ' s savings are " estimates based on prior matches.  All
                    savings have been annualized. Table III provides information on
                    savings realized from each match performed as of February 1986.


                                                    . TABLE III

                                                       Savings

                     tate                       f\t sav-;            Technical - Savings 2 - If-:.
                    California                                                    N/A
                    District of                    $140, 000
                     N/A

                    Columbia
                    Illinois                       $134 530                 $32 400
                    Oklahoma                        $10 000                 $30, 000
                    New Hampshire                   $22 608                       N/A
                    New Jersey                     $148, 116                      N/A
                    Virginia                       . $10 908                      N/A
                    Wisconsin'                     $615 072                 $18   boo
                    Total                        $1, 082 180                $80, 400

                            1 The f1gure shown is the total amount of savings from

                              all matches performed by test States using standardized

                              formats.
                            2 Techn1cal savings are realized because States el1minate

                              the need to reprogram for each match. Only three
                              States provided dollar amounts. Savings are based
                             on the initial conversion costs times the frequency
                             of match performed.
                         3 California did not have any error 

                                                                   cases.
                        4 The District of Columbia reported savings for only one
                          match performed using the standardized format.
                        5 A 10 percent recidivism rate is factored into the
                             savings reported by Illinois.
   ;- ,
.-_. .. -   ''" ""                                                       ,-- .   _-- . ______-
                                                                                         ....---- .




                 STATE EVALUATIONS


                 States reported that use of the standardized formats gave them
                 the capability to perform more matches. All States, except the
                 District of Columbia, reported that the formats el1minated the
                 need to " reprogram for each match. They recommended using the 480
                 character standardized format for both input and output files
                 because the 480 character record is more efficient than the match
                 process used prior to the formats (1. e., producing more rel1able
                 hi ts and better . output that will require fewer staff hours to
                 verify) . California and New Jersey reported that implement1ng
                 the formats will increase the frequency of matches. Illinois
                reported that the formats, particularly the critical elements
                will make it easier to determine the validity of the match.
                Wisconsin , Illinois , and Virginia reported that the formats gave
                the eligibility worker a more comprehensive report of
                                                                            nformation
                -to be used to resolve errors j.dentified by..atches.
                The District of Columbia however , reported that a 480 character

              . standardized format is not necessary to conduct productive
                computer matches. They bel1eve that a " 160 character format
                should be pro oted rather than the 480 character record.
                In addition , States believe that use of the standardized
                formats will eliminate costs to reprogram and will enable States
                to screen and prioritize cases more quickly. For example, States
                reported that workers are able to reduce the number of collateral
                contacts because they receive a more comprehensive report on

                hi ts. Most States reported that they plan to use the formats in

                all future matches.



               CONCLUSIONS

               The series of test performed demonstrated the technical
               feasibili ty and usefulness of the standardized formats for
               conducting data exchanges. States made the following
               recommendations for changes which were 1ncluded in the final
               formats:
                          Increase the number of data elements included on all formats

                          to provide a 
ore comprehensive report: and

                          Change the assistance programs format to enable States to
                          create one tape to accommodate matches of recipients
                          receiving benefits in mul tiple programs simul taneously.
. .   ,'




           All states, except the District of Columbia concluded that
           standardized formats (480 character records) are more efficient
           when used in both the input and output stages of the match
           process.   This method eliminates the need to reprogram for each
           match arid perform a second match before hits can be referred for
           fOllow-up. If   standard format is not used for the input record
           the requesting agency needs to run a second match of the
           responding agency s output record against the requesting agency
           files (as of the date of the original input file) to add
           information necessary for fOllow-up and verification purposes.
           This streamlining of the referral for fOllow-up has become
           cri tical in light of the Income and Eligibility Verification
           requirements in P. L. 98-369. Under regulations implementing the
           statute , States are required to complete fOllow-up activities in
           30 days.
           The test States (with the exception of the District of Columbia)

           agreed that the standardized formats facilitate matches by

           eliminating confusion on information requirements , reducing

           reprogramming. costs and enabling matches to be completed more

           efficiently.
..




                           PART II - STATE TEST FINDINGS


                                           CALIFORNIA
     California (Santa Clara County) participated in four matches of
     its Publ1c Assistance (Aid to Famil1es with Dependent Children
     (AFDC) and Food Stamp (FS) ) records of children 6 years old with
     California:
                Medi-Cal paid claims records
                Bureau of Vi tal Statistics (Birth         and Death index
                  records), and
                Child Support Payment records.
     California developed new data extraction and matching programs to



             and C.
     convert and read data in the assistance programs format (MR 1).
     Ten standardized formats data elements were not used; five data
     elements were added. For more information , refer to Appendices

      , B

     Social Security Number (SSN), name , date of birth (DOB), sex

     address , case number , beneficiary identification number and
     district attorney number were used as match criteria. The
     fOllowing tables display (1) technical costs to develop new or
     modify existing software to convert files and perform matches

     (2) match results as of February 1986 , of active cases which were
     referred for follow- up review , and (3) staff costs for fOllow- up.

                                         TECHNICAL COSTS
     Match                Conversion                    Matching
     AFDC  FS/
     Medi-Cal                      N/A                     795

     AFDC,    FS/                 N/A
     CSE                                                   713
     AFDC  FS/
     Death Index                  N/A                      932
     AFDC     FS/
     Birth Index                  N/A                      615


             1 Cal1fornia ' s conversion
                                         costs were included in the total
                project costs and could not therefore be identified.

             2 Matching costs are estimates reported on OIG Forms II and

               III.
, "   . , ,




                                            MATCH RESULTS



              Match               Total
                                  Hits
                                           FOllow-up
                                           Referral
                                                        FOl10w-up   Error1 Annual
                                                        Completed   Cases  Savings

              AFDC , FS/

              Medi-Cal              573

              Death Index
              Birth Index

              CSE


                                STAFFING COST FOR SCREENING/FOLLOW-UP


              (Cost information on prioritization and follow- up is not

              available) .

              Eval uation
              California reports that the data elements contained in the
              assistance programs format were more than adequate to perform the
              various intrastate matches they executed. However , the formats
              lack specific data to operate the California Integrated Earnings
              Clearance (IEC) Fraud Detection System (FDS). Fil1er space was
              used to include the additional data elements needed.
              California concluded that the use of the standardized format in
              both the input and output process for interstate or inter-agency
              computer matches has the potential for achieving the fol10wing:

                        Less confusion on basic information requirements.

                        Reduced costs resulting from reduced analysis and coding

                        time.
                        A greater likelihood that a State agency will reuse the

                        standardized format (even for a one-time application).

                        A greater potential for interfacing a single program

                        wi th the data bases in different States.

                        Accelerated programming activities because the format of

                        incoming (or created) information will already be known.

              California stated that their match demonstrated that the " Federal
              assistance programs format was able to be effectively utilized in
              the exchange and matching of welfare related data.




                    1 Error cases include only cases with incorrect

                      payments.
 ,"
.. .   . ' ,




                                              DISTRICT OF COLUMIA
                 The District of Columia Department of Human Services
                 participated in 16 matches of its Public Assistance (Aid to
                 Families with Dependent Children (AFDC) and Food Stamp (FS) and
                 general public assistance (GPA)) records with:

                           Pennsylvania, Virginia, South Carolina, and Delaware

                           public assistance records,


                           Maryland, Virginia, Delaware, North Carolina, South

                           Carolina and Pennsylvania wage and unemployment

                           compensation benefit records.


                 The District of Columia developed data extraction and matching
                 programs to convert and read data in the assistance programs, (MR
                 1) format. The          District of
                                             Columia performed 11 matches under
                 the cooperative agreement in which the standardized formats were
                 not used because agreements could not be reached on approaches to
                 use of the formats. Those data elements not used or added were
                 not identified.
                 The District of Columia Employment Security Agency performed the
                 match using Social Security Numers as the key identifier. The
                 following tables display: (1) technical costs of the requesting
                 and responding agencies, (2) match results, as of February 1986,
                 of active cases referred for follow- up, and (3) staff costs for
                 follow-up.
                                                 TECHNICAL COSTS

                 Match                           Conversion 1              Ma   tChing
                 DC PA/DE PA, Wage, UCB                $150                 $2,   000



                 *DC PA/Penn. PA                       $150                 N/A
                 DC PA/Penn. Wage, UCB                 $150                 N/A
                 DC PA/SC Wage, UCB                    $150                 $5, 148
                 *DC PA/SC PA                          $150                 $2, 500
                 DC PA/MD Wage, UCB                    $420                 $800
                 DC PA/NC Wage, UCB                    $150                 $2, 500
                * DC PAIvA FA, Wage, UCB                N/A                     N/A

                         1 Cost figures represent costs to create tape to be used in

                          ma tches   .
                         2 DC reported that " qollar amounts are estimates based on

                           previous matching experiences.


                         *Matches perf        d utilizing standardized   formats.
, . -
  , ..   .,.            . - ---   --.._w_.--
                                               '--"---   ----- ----..---....--..




                                                                                   MATCH RESULTS


               Match                           Total FOllow-  Cases                                Error     Annual
                                               Hits Referrals Completed                            Cases     Savings

               DC PA/DE
                   Wage
               UCB

               DC PA Penn                          N/A             N/A                 N/A         N/A              N/A *

               DC PA/Penn                                                              N/A         N/A              000
               Wage UCB
               DC PAl                                                                  N/A         N/A       $18 207
               SC Wage UCB
               DC PA/SC PA                        N/A                 N/A              N/A         N/A              N/A *
               DC PA/MD                           000               , 000              N/A         N/A      $250 000
               Wage UCB
               DC PA/NC                                              N/A 3             N/A         N/A        $5,   000
               Wage UCB
               DC PAIVA                                                                N/A         N/A      $140 000 *
                   Wage            UCB


                                           STAFF COST FOR SCREENING/FOLLOW-UP

               (Information on prioritizing and follow- up costs is not routinely

               reported) .
               Evaluation
               The District of Columbia Department of Human Resources reports
               that it should not be mandated that States use the standardized
               formats if they agree upon any other format , and no attempt




                     1 Error cases include only cases with incorrect payments.

                     2 DC reported that dollar amounts are estimates based on
                        previous matching experience either wi thin                                        the District or
                        wi th the part1cular                                       State.
                     3 DC reported that dat from this match was not usable
                       because it was too badly scrambled to prepare a report.
                     * Standardized formts were used for these matches.

, .,   "   . , .




                   should be made to standardize output (formats or matching

                   procedures) . The lack of standardized formats and consistent

                   data elements between states computer f11es are not significant

                   impediments to computer matching.


                   The D1st"rict of Columbia recommends that " a simple standard
                   format of 160 bytes (not the proposed 480 byte record) w111

                   facilitate interstate computer matches. The District of Columbia
                   did not provide information regarding specific data elements to
                   be included in this shorter record , but indicated that the
                   supplemental data carried in the standard formats should be
                   obtained by the worker during the fOllow-up.
.. ,..   ,. .'
                                                  ILLINOIS

             The Illinois Department of Public Aid (IDPA) participated in

           . three matches of its Public Assistance files (Aid to Families
             wi th Dependent Ch11dren (AFDC); Medicaid; Aid to the Aged , Blind
             and Disabled (AAD) and General Assistance (GA)) records with:
                          California and Wisconsin public assistance

                          records, and


                          Wisconsin unemployment compensation benefits

                          records.
                 Addi tionally, Illino1s executed a match between Wisconsin Welfare
                 records and Illinois UCB records.

                 The formats tested were the assistance programs (MR 1) and the

                 compensation/benefits (MR     3).
                                                 Illinois developed and modified
                 data extraction and matching programs to convert and read data in

                 standardized format. Two data elements prescribed by the

                 standardized formats were not used in the match with California.



                                     and C.
                 Nine data elements were omitted from the match with Wisconsin
                 public assistance records , and nine data elements were included
                 in the match with WI UCB. For more information , refer to
                 Appendices A , B

                 Il1inois and Wisconsin public assistance agencies performed the
                 matches using Social Security Number (SSN), name and date of
                 birth as match criteria. The following tables display (1)
                 technical costs; (2) match resul ts as of February 1986 of active
                 cases which were referred for fOllow- up review; and (3) staff

                 costs for fOllow- up:

                                              TECHNICAL COSTS


                 Match               Conversion                  Matching

                 IL PA/CA PA            610                        740
                 IL PAl                000                       (Paid by Wisconsin)
                 WI PA , UCB


                 IL UCB/WI PA        (faid by Wisconsin)           990


                      1 Conversion costs are costs to modify and develop programs

                        and tapes to be used in matches.


                      2 Matching costs are costs for developing software to

                         execute matches and computer charges.
.,   ,'




                                          MATCH RESULTS

          Match	       Total      FOllow-up        FOllow-up   Error    Annual
                       Hits       Referral         Completed   Cases    Savings

          IL PA/CA       053      467              373	                   $134 698

          IL PA/WI       134      134	                                           $168

          IL PAl

          WI UCB

          IL UCB/WI PA         See Wisconsin Report

                          STAFFING COSTS FOR SCREENING/FOLLOW-UP

          MATCH	                         SCREENING                FOLLOW-UP

          IL/CA	                           270                    $16 360

          IL/WI	                           614                         $375

          IL PA/WI UCB                    $462	                        N/A

          Evaluation
          Illinois concluded that the amount of savings to be realized over
          time was not dependent on the methods used for matching, but
          rather on the movement from the developmental (developing or
          modifying software) to the production stage of the match.
          Illinois estimates per welfare assistance match , an 89. 1 percent
          reduction in the costs of data extraction and reformatting. This
          translates to savings of slightly over $2 000 per match.

          Illinois reports that the standardized formats and related data

          elements , part1cularly the critical elements , made it easier to
          determine the strength of matches and to verify information
          produced by the match. Continued use of the standardized
          formats , particularly in final form , w111 improve the quality and
          reliabili ty of match results in several ways:
               Turnaround time should be reduced, thus improving the
               timeliness of match resul     ts.
               1 Error cases include only cases with incorrect payments.

.. ' '   . , .




                      Follow-up activities will be expedited since standardized

                      output will be easier for review staff to understand.


                      Costs for conducting various matches should be reduced

                      because the production mode will be utilized, rather than

                      the developmental mode.


                 Illinois plans to " make the fullest possible use of the
                 standardized formats in  future data exchanges.   The formats will
                 be used for al matches except for intrastate duplicate
                 assistance matches.
, "




                                         NEW HAPSHIRE



      The New Hampshire Department of Publ1c Welfare participated in
      three matches of its public assistance (Aid to Famil1es with

      Dependent Children (AFDC), Food Stamp (FS) and Medicaid) records
      with:
               Vermont UCB records.


               New Hampshire wage 1 and UCB records.

      New Hampshire tested the assistance program (MR 1), wage/earning

      (MR 2), and compensation/benefits (MR 3) formats and modified an
      existing program to create a file in standardized format. All of
      the data elements prescribed by Format Type 1 were        Threeused.
      data elements prescribed by Format Type 3 were not
      more information , refer to Appendices A , B and C.
                                                                For  used.
      New Hampshire and Vermont Employment Security Agencies performed

      the matches u ing the Social Security Number (SSN), name and date

      of birth (DOB) as match criteria. The fOllowing tables display:

      ( 1) technical costs of the requesting and responding agencies for
      converting files and performing matches by developing new or
      modifying software; (2) match results , as of February 1986 , of
      active cases which were referred for fOllow- up; and (3) staff
      costs for follow-up:

                                       TECHNICAL COSTS
      Match               Conversion                     Ma tching


      NH PAl                       727                   $350
      NH UCB

      NH PAl                       193                   $620
      VT UCB


           1 Data from the wage match was not used because the wage

             data was not in standardized format nor transcribed

             into a usable form.
           2 Conversion costs are costs to modify and develop programs

             and tapes to be used in matches.

           3 Matching costs are for developing programs to execute
             matches , and computer charges.
., .'   . , ;




                                                  MATCH RESULTS


                Match     Total
                          Hits
                                   FOllow-up
                                   Referrals
                                                   Cases     Error

                                                   Completed Cases
                                                                             Annual    Fraud

                                                                             Savings Referrals

                NH PAl                                                       $14 652
                NH UCB

                NH PAl                                                       $ 7 956
                VT UCB




                                  STAFFING COSTS FOR SCREENING/FOLLOW-UP


                Match                   Screening                    FOllow-up

                NH PAl                      $34                       $372
                NH UCB


                NH PAl
                VT UCB                      N/A                       N/A

                Eval uation
                New Hampshire reports that implementing the standardized formats

                nationwide would save computer time and personnel costs to
                implement a computer match. Once the standardized formats are
                implemented , the only cost should be computer costs to execute
                the match.   Standardized formats will " encourage more States and
                agencies to initiate cross-matches since start-up costs would be
                minimal , especially since start-up costs are a deterrent to
                interstate matches.




                     1 Error cases 1nclude only cases with incorrect payments.


                     2 Erroneous payments in fraud cases are not included in

                         savings figures.
  , '




r : +





                                                   NEW JERSEY

         The New Jersey Department of Human Services Division of Public

         Welfare participated in two matches of its public assistance (Aid

         to Famil1es with Dependent Children (AFDC), Food Stamp (FS) and

         Medicaid) records with:
                     New York publ1c assistance records , and


                     Pennsyl vania wage records.
         New Jersey used the assistance programs (MR 1) and the
         wage/earnings (MR 2) formats and developed a new extraction
         program to convert data in standardized                format.
                                                          Four of the data
         elements prescribed by the standardized formats were not used and
         twenty-four new elements were               added.
                                               For more information , refer
         to Appendices A , B and C.
         New York Department of Social Services and Pennsylvania State
         Employment Service Agency performed the matches using the Social
         Security Numb r (SSN) and name as match criteria. The following
         tables display:  1) technical costs of the requesting and
         responding agencies , 2) match results , as of February 1986 , of
         active cases referred for fOl10w-up; and 3) staff costs for
         fOllow- up.
                                   TECHNICAL COSTS-
         Match                  Conversion                       Matching



         NJ /NY PA              $23 774                                     312
         NJ PAl                 $ 7 789                                $935
         Penn Wage
         (System I)

         NJ PAl
         Penn Wage (System II)

                                $ 6          497                            550


              1 Costs figures 1ncluded NJ' s costs of $21
                                                           156 to develop
                a new computer matching software system and NY' s costs
                of $2 , 618 to develop programs to convert and read data
                in standardized format. NJ standardized format conversion
                cost were not identified. $7 789 and $6, 497 are Penn
                 costs.
              2 Matching costs are for modifying and developing programs

                to execute matches.

              3 Penn. SESA executed two matches

                                                  , identified as Systems I and

                     , with the NJ public assistance            file.
                                                            System I accessed the
                wage master file on-line and generated wage data only for

                cases that matched. 
    or System II a tape of wage data was
                created by the SESA and matched with the NJ PA
                Two processes were performed for cost comparison.
                                                                                  file.
, '   ...                         .. .                              ). 



                                      MATCH RESULTS



            Match    Total FOllow-up
                     Hits Referrals
                                           Cases
                                           Completed
                                                       Error    Annual Fraud
                                                       Cases 1 Savings 2 Referrals

            NJ/NY     861       358          358                $84 792

            NJ PAl    750       222          205               $63, 324    110
            Penn
            Wage 3


                            STAFFING COST FOR SCREENING/FOLLOW-UP

            New Jersey uses the computer to prioritize match hits to

            eliminate cases from the review process. (" Fol10w-up is

            performed only on cases that will be cost effective to pursue.

            Information on prioritizing and fOllow- up cost is not routinely

            reported.
            EVALUATION

            New Jersey reports       it is just plain old common sense to have

            Standard Matching Formats because of the potential for reducing
            costs in the long run.     Standardized formats wil1 enable
            agencies to know what to expect (data , layout , etc.    Agencies
            can , therefore , pIan and implement systems to take advantage of
            the anticipated data.

            New Jersey states that implementation of the formats will
            increase the frequency of matches which will generate data
            requiring fol10w-up at a rate faster than current staffing levels
            will be able to handle.  Nevertheless, the formats contain
             enough information to al10w agencies to eliminate match records

            from the labor intensive investigations and verification process

            and to prioritize the output that must be fOllowed- up by a

            reviewer. New Jersey recommends the implementation of a 480

            character standardized format input record and a 960 character

            output record for all matches. Using a condensed record will





                   1 Error cases include only cases with incorrect payments.


                   2 Erronous payments identified in fraud cases are not
                     included in the savings figures.
                   3 Match resul ts from Systems I and II were identical.

, .,' .




          require performing a second match upon receipt of the match
          output file. This   would result in the adoption of two
          standardized records, not one, and would require add1tional

          programming, processing, systems maintenance, etc.   The deviation
          from a single standard wil1 resul t in the proliferation of other
          standards and wil1 resul t in chaos.

                                               OKLAHOMA

The Oklahoma Department of Human Services participated in three
matches of its public assistance (Aid to Fam111es with Dependent
Children (AFDC), Food Stamp (FS) and Aid to Disabled (AD) J
records wi th         Texas:
              Public assistance records.


              Wage and UCB records.

The formats tested were the assistance programs (MR 1),

wage/earnings (MR 2) and compensation/benefits (MR 3).

Oklahoma modified an existing data extraction program to convert

   a in standardized              format.
                               Oklahoma used all but one data
element prescribed by the standardized formats and added three.
For more information , refer to Appendices A , B and C.
Texas Department of Human Resources (DHR) and Texas Employment
Commission (T C) performed matches using Social Security Number
(SSN) as the match criteria. Texas (DHR) converted the Oklahoma
files into the TEC format and forwarded the data to TEC for
matching. After completion of the Oklahoma match with TEC , Texas
DHR converted the match output back into the standardized format
and sent it to Okl ahoma. The following tables displ ay: (1)
technical costs of requesting and responding agencies, ( 2) match
resul ts, as of February 1986 , of active cases which were referred
for fOllow- up; and (3) staff costs for fOl10w-up:

                                            TECHNICAL COSTS
Ma   tch                       Conversion                     Ma tching

OK PA/TX                                015                   $5, 027
  , Wage
UCB




       1 Conversion costs are costs to modify and develop programs
         and tapes to be used in matches. These are Oklahoma
             costs.
           2 Matching costs included costs for developing software to

             execute matches , processing and computer charges. 

             These are Texas ' costs.

                             MATCH RESULTS

Match           Total FOllow-  Cases           Error       Annual
                Hits Referrals Completed       Cases       Savings

OK PAl          896    463            463      N/A     $10 000
TX PA
Wage , UCB



                 STAFFING COSTS FOR SCREENING/FOLLOW-UP

Match                  Screening             FOllow-

OK PAl                   , 628               N/A
TX PA , Wage

UCB


EVALUATION

Oklahoma reports that the standardized formats are " essential to
an orderly flow of data between State agencies.   Standardized
formats eliminate the need to reprogram for each match with a
different agency as a result Oklahoma will save $5 000 per match.
Investigative time for screening matches between States will be
reduced.
Oklahoma plans to use the standardized formats to perform matches
wi th   other bordering States.




        1 Error cases are cases wi th
                                   
 incorrect payments.

,,
.. \..




         .. - t




                                                 VIRGINIA
                  The Virginia Department of Social Services participated in one

                  match of its public assistance (Aid to Families with Dependent

                  Children (AFDC) and Food Stamp (FS) applicants)) records with:


                            Virginia wage and unemployment compensation benefits

                            records.
                  Virginia used the assistance program format (MR 1) and developed
                  data extraction and matching programs to convert and read data in
                  standardized format. Three data elements prescribed by the
                  standardized formats were not used , and six data elements were
                  added.  For more information , refer to Appendices A and B.
                  The Virginia Department of Social Services performed the matches
                  using the Social Security Number as the match criteria. The
                  following tables display: (1) technical costs of the requesting
                  and responding agencies, ( 2) match results, as of February 19
                  1986 , of active cases referred for fOllow-up; and (3) staff costs
                  for fOllow- up.

                                             TECHNICAL COSTS


                  Match                      Conversion           Matching
                  VA PA/Wage                 $28, 640                720

                                              MATCH RESULTS

                  Match     Total FOllow-         Cases     Error       Annual
                            Hits Referrals        Completed Cases
                  VA/PAl                                                $10 908
                  Wage , UCB




                          Conversion costs of $28, 640 are costs to redesign VA'
                          entire computer matching software   system. Costs to develop
                          data extraction and matching programs to convert and read
                          data in standardized format were not identified.

                          Matching costs are for modifying and developing software to

                          execute matches and computer charges. Figures are rounded

                          to the nearest dollar.


                          Error cases include only cases with incorrect payments.

    ,,


J li .. ..




                            STAFFING COSTS FOR SCREENING/FOLLOW-UP


             Match                      Screening                 FOllow-up

             VA PA/Wage                 $600                      N/A
             UCB



             EVALUATION

             Virginia reports that the " formats will result in savings if all
             agencies and States use them for data exchanges, because this
             will eliminate the need to reprogram for each match performed.
             Use of the formats will not cause more hits to be identified from
             a match. However , when a match is completed , if the requesting
             and responding agency use the data elements contained in the
             standardized formats, a decision regarding whether to follow-
             the match hit can be quickly made. Once the fOllow- up decision
             is made , the standardized formats data elements provide the
             eligibility worker with a more comprehensive report.

             Virginia plans to use the formats in all future inter- and intra­

             state matches.





                   1 FOllow- up costs were not available.
                                                            Virginia does not
                     routinely collect this information.
,.
.. '               ,-,            ""--,,.    --""--':_   - --_.   --"""      ----",, ""-   "'C_,.""--   -""J'-'             -----
                                                                                                                         ._..
                                                                                                                  "---_1'_
                                                                                                                                    --- ..-.-   .--




                                            WISCONSIN

       The Wisconsin Department of Health and Human Services (DHHS)
       participated in 13 matches of its public assistance (Aid to
       Families with Dependent Children (AFDC), Food Stamp (FS), and
       Medicaid) records with: 

                 Minnesota unemployment compensation benefits (UCB)
                 records (two matches).

                 Iowa Welfare records (two               matches).
                 Internet (two matches).
                 Illinois UCB records.


                 Illinois ,   Alabama and Mississippi Public Assistance
                 records.
                 Wisconsin UCB records.

       Addi tiona11      two matches were performed with Indiana (AFDC and
       records   ) but , only the Wisconsin files were in standard                                         format.
       Format MR 1 and MR 3 were used. Wisconsin developed new and
       modified existing data extraction and matching programs to
       convert and read data in standardized                          format.
                                                        While two of the
       data elements prescribed by the standardized . formats were not
       A and B. 

       used, ten were added.  For more information , refer to Appendices

       Social Security Number (SSN) and name were the criteria used to
       perform matches. The   fOllowing tables           1) the technical
       costs of the requesting and responding agencies , 2) match
                                                                          display:
       resul ts, as of February 1986, of active cases r ferred for
       fOllow- up review; and 3) staff costs for fOllow-up.




             Interstate Telecommunications Network (Internet) - A

             telecommunications network system which supports a number

             of interstate unemployment insurance program applications

             for data exchanges.

.,, ,   , .





                                          TECHNICAL COSTS

               Ma   tch                     Conversion                    Matching
               WI PAl                             $21                       585
               MN UCB 1

                     PA /                         $21                      $105
               MN UCB 2
               WI PAl                             $21        (Cost   paid by Illinois)
               IL UCB

               WI PA/lnternet 1                  $114                      $704
               WI PA/lnternet 2                  $114                       $46
               WI PA/WI UCB                      $469                       168
               WI PA/IA PA 1                     907                        091
               WI PA/IA PA 2                     $35                        $91
               WI PA/IL PA                       $21                     $3, 820
               WI PA/AL PA                       $21                        $75
               WI PAlMS PA                       $21                        $75
               WI ,PA/IN FS                      $21                       $265
               WI PA/IN AFDC                     $21                       $265

                      1 Wisconsin s initial costs to develop an extraction program

                        to be used to develop tape files for computer matches were

                             500.Costs shown are for tape development unless
                          otherwise indicated.
                      2 Matching cost are for modifying and developing software to
                        execute matches and computer charges. Figures are rounded
                        to the nearest dollar.
                      3 Costs figures include $21 incurred by the WI PA agency
                        and $93. incurred by WI SESA.
                      4 Costs figures include $426 incurred by WI PA agency
                        and $43 incurred by WI SESA.
                      5 Costs figures include $21 incurred by WI and $1886
                        incurred by IA PA agency.
                      6 Costs figures include $21 incurred by WI and $14 incurred
                          by IA.
,.   , .
     -.   . ,- ' - -     ------ _.--..._._                                       ----- - ..-- -- --




                                                             MATCH RESULTS


            Match               Total                 FOllow-      FOllow-       Error    Annual
                                Hits                  Referrals    Completed     Cases    Savings

            WI PAl                                                                                     482
            MN UCB 1
            WI PAl                                                                                     734
            MN UCB 2

            WI PAl
            IL UCB

            Inter­                  135                                                             , 828
            net 1

            Inter­                  476                271         122                    $83 , 000
            net 2

            WI PAl               5465                 1275        1275         1020      $295 000
            WI UCB

            WI PA/IA PA                                                                                872

            WI PA/IA PA                                                                                824

            WI PA/IL                659                659         348                   $34 980

            WI PA/AL PA                                                                  $16 704
            WI PAlMS PA                                                                  $75 648
            WI PA/IN                292               178          N/A                   $90, 000

            WI PA/IN
            AFDC                   252                             N/A                                N/A




                        Error cases include on y cases with incorrect payments.

.,   ..




                          STAFFING COSTS FOR SCREENING/FOLLOW-UP

          Match                       Screening            FOllow-up

          WI PA/MN UCB 1               $400                N/A

          WI PA/MN UCB 2               $320

          WI PA/IL UCB                 $160

          Internet 1                   $329

          Internet 2                    068

          WI PA/WI UCB                  $25

          WI PA/IA PA 1                 $40

          WI PA/IA PA 2                 $87

          WI PA/IL PA                   445

          WI PA/AL PA                  $143

          WI PAlMS PA                  $572

          WI FS/IN FS                  $885

          WI AFDC/IN AFDC               162


          EVALUATION

          Prior to using standardized formats, Wisconsin performed only two
          to four matches a   year. Since utilizing the Standardized
          Formats, thirteen matches have been performed (11 of these were

          inter- jurisdictional matches with six different States).
          Wisconsin reports that the standardized formats are efficient and

          cost-effecti ve and make inter-jurisdictional matching a simple
          process. The data elements are presented so as to facilitate

          assessment of the strength of the match , expediting processing
          and distribution of match hits for      resolution.
                                                           Also, field staff
          found the additional information useful for conducting case
          reviews.
Wisconsin states that Standardized Formats enable an agency to
develop an initial software program and to use it for all
subsequent matches involving any agency using the Standardized
Formats. Wisconsin reports savings, because reprogramming was
eliminated for 12 of the 13 matches performed, as $18 000.

Wisconsin concludes that standardization is vi tally important if

computer matching is to become a nationally viable, practical

tool in the detection of welfare fraud , abuse and errors.

                                                               '''... - .                                 . ... "'
                                                                                                        ---------
                                                                                                             . ........ ,-           " ...
                                                                                                                                  -...
                                                                                                                                  ..- -....- - --
                                                                                                                        -... - - --..                      -...-      "'
                                                                                                                                                                      ."
                                                                                                                                                                      -."
                                                                                                                                                                      "
                                                                                                                                                                      ...
                                                                                                                                                                      :: -
                                                                                                                                                          """u"
                                                                                                                                                          8u..' 'It
                                                                                                                        1=
                                                                                                                                                           : E
"I              I-   . 11",1'   t-        k" :'!.   t-


                                                                                                                                       ..n


                                                                                                                                       f;.

                                                                                                                        F3L         InIU.

                                                                                                                                      II .
                                                                                                                                                                      IA


                                                                                                                                                          Cent""      0.- n
                                                                                                                                                          of Birth



                t-   reI.       I-      aCl'1r      I-                                            t-I                   r-1                         rli     =1:
                                                                                                                                                                      mn

                                                                                                                                                                      -0 tI
                                         :sli.                                                                                                                        3 ­

                     Iii                                                    tj                                                                                        U. i



                                         rri t= I                           t:                                                                            ISF
                                                                                                            St.te


                                                         Pr-
                                         fii


 H.tch   Con.        Sht.            I --_------                                 I F'e,..m   VP     l.......

    ;-
    .::- ..
." :..
    -..          .'                                                                                                                      ....-
                                                                                                                                         --,':

                                                                                                                                         .""
                                                                                                                                           ..".
                                                                                                                                             ::.                                        ;:;:


                                                                            APPENIX A (CONTINUED


                                                                        MATCH RECORD TYPE 2 (MR
                                                                           WACE , EARHIHC FORMT



    ;1- Stm
                                  l.,tf 14t1tiiC\U.a h.'.,
                 Fil            C 'hai 14tatifiC\ti4D . II'tf
    .. i'
                 ir.,




   : f. i                                                       t.ploJ.
   : 1'­                 . EIt1"", Firrt                    fil..
                                                           - SufU.




                                                                                                                                                                                     lU\'"
                                                                                                                                                      ZIP          ZIP         Ttl..t..!I
                        tl1.. IIt L.nU",      Strttt U4t                              E8l" M8 ;'tQtW Citv
                                                                                                                                                                                I1..



                                                                "t If                                                                                                       EIr11O


                                     IZ
        (1I1.J

                                                                                                               u,l8ttl.                                                     84d1e;
    : I.l. tl­            tlr 1., 1tl.,htftt 1.IHr               File
                                                                 D;tt
         .u.
                                                    . :E




                                                                                                                                                                         EIr1"! &4,'
                               E81o) 8odre;                                                            l.l,"         Ious




                                                                                                                                                                           EDloftr m,
                             Ell., M4ess                                                          bpI., *'m ..




                                                                                                                                            IE S     tli E'     rer EII.     . 11.




                                                                              leuU.                                                         '"u r.r     r.ird         htt: hr r 0111: 1:
                                                                             IInct     -"$ fir Firrt                "'1$ for Stelhd

                                                                                                                    ",rttr 'rier t.       ",rttr 'rier t.                  rt,r trier t. .

                         t ESE I . E D fer E8. Ste. lit                      Cwri.r       W'ttr Prior t.

                                                                                                                          Btuat "por,d             Imht htlrttl     k:t &teent tcf'tt4
                                                                              ""11    lo hc.t
:..
::. .:
..: ::. '
 : ':......
:.:-
.-
:..                                                                  --,                   .)              .... !:,      (..,.
       ..-   -: .. ..-..--.---------.--
                                                                                                                                                      .-.        ::    = ....
                                                                                                                                                                 .."" -..
                                                                                                                                                                 .                                                 .....::':
                                                                                                                                                                                                                       . -:
                                                                                                                                                                                                                       .. ..




                                                                                                   APPENIX A (CONTINUED


                                                                                               MATCH RECORD TYPE 3 (MR 

                                                                                           COMElATIONDaITS FORMT

                                                                                            ..tt           .i          88f. ",

                                                                                           lI.lld                       t1ltll
                                                                                                                                       Staal kwit, lle,





::i.                                                                                                                               Cl.iaa Adess
                               C.ia. n'ft              1.1.
                                                                                                                                        Line II




                                                                                                                                                                                                            QUlUt
                                    Cl.iliit,t Adi7us                                                                              Ckt ti                                      ZIP             ZIP         T8l.,1.
                                                L.ane .                                                                                                                        Coe
                                                                                                                                                                                                            w.,


      ClPWlt                                                                        IWIU             It..ri t
      lelet"'''              ril
                                               -. 8f"
                                                 Ii.                 L.c.l
                                                                     trh                              ..t                   1I,             -: acHru
                                                                                                                                               '''I.
                                                                                                                                                        _ut             ecpensa=le -: leurit
                                                                                                                                                                                      t...Dt                   "\I"'t
        ..11,
                                                                                    a-it


                                                                                      fa,t
                                                                                                                                      c.-                ht.                   D.t.e =
                                                                                                                                                                        W..k EMan;

                                                                                                                                                                                                               "tt
                                                                                                     lUeh.
                                                                                                                             --t                                                '1




        COfper..ioble       I...ht                            ",,,dt                  .r&litl. ': k..rit                h,.ftt         COIns&bl. -: a-rit             htent            COIenuble -: k..rit 

                    k Ernh     II"t
                              r..
                                     i t                                             . Erodart i t"..lt
                               WHk Enin- 5 ,"'llIt                             WMk E."Icur.. :: h,l.ftt
                     Ditte -                                  "tt                     Ditte -                            tete               D-.. -                     tete                     te -



     ..,..ftt                        ..s.b1.
                             Week Endini a
                                                          'mht
                                                          f.,..ftt
                                                                             _iIt            Coitb          ltit
                                                                                                             Ie
                                                                                             Week Endani :: ,.,..ftt
                                                                                                                                     ,.t                 .t.le        I..Ut
                                                                                                                                                                      '...ut
                                                                                                                                                                                      "'lIt          Conper,satle -:
       'ttt                          DAt. =                                  88t.                   D6te                              ht.              o.te -
                                                                                                                                                       Endine 5
                                                                                                                                                                                       hte
                                                                                                                                                                                                     Week Endlni
                                                                                                                                                                                                           CI!;.
                                                                             ''7                                                                                                       t9




 'Utht
  h,.         ftt
                         Pwoat                  Conpsu,le -: ImFit
                                                    Er,dina i ""'It
                                                                                           h,",t           Week Encine
                                                                                                                         itl.
                                                                                                                                    ril..
                                                                                                                                                                          ,..t              Co..rat      11: :. hr.rlt
                                                                                                                                                                                            W68k Erebrli ; hU'lt
     818                     ht.                   DAt.. - III                             "tt                        DAte                                                                      Ditta -
                                                        110 -                                                         III                                                                        112 ­
                                                                                                                                                                                                                      113




          '1o1tr.t                             rISlob!. -=
                                    WMI Encil' i h ltt
                                                               'efteFit                         COns1.
                                                                                                w. Endir'i                        Pltch Period                                       riler

               11tt                        Clit" ='11                              "tt                DAte                            o.tes
                                                                           .. w
                                               113                                                     .14                   FrOl
              113                                                                  114
.-




                                    APPENDIX B


                            DATA ELEMENTS ADDED


     Data                State                Reason for Adding Data Element

     Element
     AFDC                Wisconsin            To facilitate processing

     Begin Date
                              output.
     AFDC End Date
      Wisconsin            To facilitate processing

                                              output.
     Absent Parent
      Okl ahoma            Future use.
     Code
     Source              New Jersey
          Identify agency from which

     Agency              Virginia             file originates.

     File
     Cross               New Jersey
          Provide applicant/recipient

     Reference                                public assistance history.
     (2 codes)


     *Case Type
         New Jersey
          Identify categories of

     or Program Code
    Wisconsin            assistance received.
     *County             Oklahoma             To display all hits in

     Code
                                              county sequence.

     County Office
      Oklahoma             To display all hits by
     Code                                     Office wi thina specific
                                              county.
     *Client             Virginia             Relationship to case name
     Number              New Jersey
          or person who appears as
                                              head of assistance unit
                                              called " person code " in
                                              New Jersey.

     Child               California           Required for special match.

     Support
     Case Number

     Child               California           Required for special match.

     Support File
     Name , DOB , SSN

     Depravation         California          Required for special match.

     Code
     * Data element was added to the standardized format MR 

..   ,.




                                    APPENDIX B (CONTINUED)

                                       DATA ELEMENTS ADDED

          Data                 State               Reason for Adding Data Element

          Element

          District             California         Required for special match.

          Attorney
          Number
          Date/Time            Virginia           Indicate date and time report

          Record                                  generated.
          Created
          *Earned              New Jersey
        Gross amount of income earned

          Income                                  by the applicant/recipient.
          *UCB Reported
       Wisconsin          Indicator to show that re­

          Indicator            New Jersey
        cipient reported receipt of

                                                  UCB.
          Food stamp
          New Jersey
        Case investigation , statistical

          Indicator            Wisconsin          use.
                               Illinois
                               Virginia
          Food Stamp
          New Jersey
        Case investigation/review.

          Application
          Date
          Food Stamp
          New Jersey
        Case investigation/review.

          Allotment
          Amount
          *Food Stamp
         New Jersey
        Case investigation/review.

          Certi fica tion      Wisconsin
          Date
          Food Stamp End
      Wisconsin          Case review.
          Eligibili ty Date


          *Food Stamp
         New Jersey
        Case investigation/review.

          Household
          Income
          Grant                New Jersey
        Case investigation.

          Reduction
          *Grant               New Hampshire
     Case review.
          Amount (Net)
,.   ..




                            APPENDIX B (CONTINUED)
                             DATA ELEMENTS ADDED

          Data              State             Reason for Adding Data Element

          Element
          AFDC              New Jersey
       Refers to AFDC program - case

          Application                         investigation.
          Date
          Mari tal
         New Jersey
       Case investigation/review.

          Status
          *Medicaid         New Jersey
      Distinguish Medicaid recipients

          Person            Wisconsin         in case.

          Number
          *Medicaid         Wisconsin        Case review.
          Begin/End
          (2 codes)


          Medicaid          California       Required for special match.

          Name , SSN
          DOB

          Name              New Jersey
      Secondary match element- privacy
          Control                            purposes.
          Person            New Jersey
      Develop unduplicated record

          Program                            counts for reports.

          Indicator
          Payee             New Jersey
      Case investigation/review.

          Indicator
          Person            New Jersey
      Identify type of assistance

          Indicator                          received.
          Redetermination   New Jersey
      Case investigation/review.

          Date
          Race              Virginia         Person identification.

          *Representative   New Jersey
      Identification.
          Payee
                            Virginia         Identification.
          *UCB              New Jersey
      Screening and investigation.

          Amount            Wisconsin
..   ,.




                                         APPENDIX C


                                      DATA ELEMENTS NOT USED

          Data              State                 Reason for not Using Data Element

          Element
          Century           California            Not on Master File of source

                                                  agency.
                            Illinois              Not critical (IL/WI

                            ( IL/WI               match only).

                             PA match only)
                            New Jersey
           Required special processing ­

                                                  not critical.

          *Date of          Illinois              Not included on California    file.
           Eligibili ty     ( IL/CA
                             PA match only)
          *Error Prone
     Okl ahoma             Used a fraud indicator.

           Flag             California            Not available.
                            Illinois              Not available.
                            Virginia              Not available.
                            Wisconsin             Not available.
          End of
           California            Available , not   used.
          Eligibili ty


                            Illinois              Only active cases were included

                                                  in matches.

                            New Jersey
           Replaced with FS Certification

                                                  date and AFDC and Medicaid

                                                  redetermination date.
          *Middle           California            Not available on source    file.
           Ini tial
          *Miscellaneous    Illinois              Not critical.

           Address Line     (IL/WI PA

                            match only)
          *Monthly          California           Available, not used.

           Payment
          Amount            Illinois              Not on file.

                            (IL/CA PA

                            and WI UCB

                            match only)

          * Data element was added to the Formats because States felt that

            the data element if used would improve the quality of the match

           resul ts .
  ,.
,. .                                                                  " "

       .. '1­





                                             APPENDIX C continued

                 Data             state                 Reason for not Using Data Element

                 Element.

                 Match Record
    Illinois              Not critical.

                 Sequence
        (IL/WI PA

                 Number
          match only)
                                  California            Not used , not critical.

                 Sequence
        Illinois              Not cri tical.
                 Number
          (IL/WI PA

                                  match only)
                                  Virginia              Not needed.

                 *program Type
   New Jersey
           Replaced by State data elements
                                                         case type    Person Program
                                                        Indicator "   and " Person   Indicator.
                 *Person Type
    Illinois              Not critical.

                                  (IL/WI PA & UCB

                                  match only)
                                  New Jersey
           Replaced by State data elements

                                                         person indicator

                                  California            Available, not used.

                 *Reported        California            Available ,   not used.
                  Income
                                  Illinois              Not on file.

                                  (IL/WI , CA PA
                                   matches only)
                 Record Type
     Illinois              Mutual agreement; not needed.

                                  (IL/WI PA

                                  match only)
                 *SSN Flag
       Virginia              Could not identify verified SSNs.

                                  Wisconsin             Could not identify verified SSNs.

             Zip + 4
             California           Not critical.

             Name Suffix
         California           Not needed for these matches.

             Local office
        California           Not needed for this match.

             Number
      , \





                                          APPENDIX D

                                       SUMRY OF       MATCH RESULTS
Match	             Total     FOllow-      FOllow-up       ' Error     Annual          Fraud
                   Hit       Referrals    Completed        Cases      Savings         Referrals
                      573

(Santa
Clara
Co. /CA-
Medi -ca1

Birth Index

Death Index
CSE

DC PAl
DE PA

Wage , UCB
DC/Penn               N/A       N/A            N/A          N/A         N/A            N/A

DC PAl	                                       N/A           N/A          000           N/A
Penn Wage	                                                            per month

UCB

DC P A/	                                      N/A           N/A       $18 207          N/A
Wage         UCB

DC/SC PA             N/A       N/A            N/A           N/A         N/A            N/A
DC P A/	           1 , 000   1 , 000          N/A           N/A       $250    000 3
MD Wage
UCB

DC PAl                         N/A            N/A           N/A          000 3         N/A
NC Wage
UCB

DC PAl                                        N/A           N/A       $140   000 3     N/A
VA PA Wage
UCB




         1 Savings from fraud cases are not included in this
                                                                               figure.
         2 These are combined totals from all
                                                          matches.
         3 Dollar amounts are estimates based on previous matching

             experiences.
                       ' ' ----   " _._   ---    ..._   _._. -- ,,_._..._   ---_.     .."---   .- -,._,- .               .---. - --"._..u ....-­ .- ..- -
                                                                                                               - . - --..-.-




                                                APPENDIX D (CONTINUED

                                           SUMARY OF MATCH RESULTS

Match          Total               FOllow-up                                FOllow-                          Error                     Annual                     Fraud

               Hits               Referrals                                 Completed                        Cases                     Savings                    Referrals
IL PA/CA         053                 467                                            373                                            $134 698                         N/A

IL PA/WI         431                 134                                                                                                              168           N/A

IL PAl                                                                                                                                                      0 1     N/A
WI UCB.

NH PAl                                                                                                                                 $14 652
NH UCB


NH PAl                                                                                                                                                956
VT UCB


NJ PA/NY         861                 358                                            358                                                $84 792

NJ PA/Penn       750                 222                                            205                                               $63 324                      110
Wage

OK PAl           896                463                                             463                      N/A                      $10 000
TX PA

Wage UCB


VA    PAl                                                                                                                             $10 908
VA Wage

UCB

WI PAl                                                                                                                                               482           NIA
MN UCB

WI PAl                                                                                                                                               734           N/A
MN UCB

WI PAl

IL UCB


WI PAl           135                                                                                                                      $3, 828                  N/A
Internet
WI PAl      476                     271                                         122                                                   $83 000                      N/A
Internet 2



       1 Savings were not reported because cases were closed prior

            to the detection of the error.
'. '"              , - ...,. --.., . '-'-   -,,, ' ,.... -",   "._   ..' ._--   . ..,        . ,-   ..--_   . .-,..    ,,._   ...   ,....- _.__._.- _.   .- -_.;.--   ---   - --_...   ''_'
                                                                                                                                                                                              ._n
                                                                                                                                                                                                    --'''   ""--- ,," '   " -. "..
                                                                                                                                                                                                                                 C. --- "- "".
                                                                                                                                                                                                                                                 -....---- "-




                                                                                        APPENDIX                      (CONTINUED


                                                                                SUMMARY                     MATCH RESULTS


        Match      Total                             FOllow-                                FOllow-up                               Error                                   Annual                                    Fraud
                   Hits                              Referrals                             Completed                                Cases                                   Savings                                   Referrals
           PAl         464                               275                                  275                                   , 020                                   $295, 000                                          N/A
           UCB

           IA/                                                                                                                                                                                      872                        N/A

           IA/                                                                                                                                                                                      824                        N/A

           PA/IL       659                               659                                  310                                                                             $34 980                                          N/A

           PA/AL                                                                                                                                                              $16 704                                          N/A

           PAlMS                                                                                                                                                              $75 648                                         N/A

           PA/IN      292                               178                                  N/A                                                                              $90 000                                         N/A

           PA/IN      252                                                                           N/A                                                                                N/A                                    N/A
        AFDC
. ;. ,
               ""----   '--   -----   --' --'   '- ._- .._..__




                                                                 APPENDIX E

                                                         SUMY OF                 COSTS

                                                                             Costs
           Ma   tch            Conversion 1                                 Ma tching   2   Screening   FOllow­
                                     N/A                                      $4, 795        N/A          N/A
           ( Santa
           Clara Co)
          AFDC, FS/
          Medical
          . AFDC,                    N/A                                      $5, 713        N/A
          FS/CSE                                                                                         N/A

          AFDC,                      N/A                                      $1, 932        N/A
          FS/Death                                                                                       N/A
          Index
          AFDC,                      N/A                                         615         N/A
          FS/Birth                                                                                      N/A
          Index
          DC PAl                     $150                                    $2, 000    3    N/A
          DE PA, Wage                                                                                    N/A
          UCB

          DC PAl                 $150                                            N/A         N/A         N/A
          Penn. PA

          DC PAl                 $150                                            N/A         N/A         N/A
          Penn. Wage
          UCB

          DC PA/SC               $150                                        $5, 148         N/A         N/A
          Wage, UCB




                 1 Conversion costs are for mOdifying and developing computer

                   programs and/or tapes for matching. Figures are rounded

                   to the nearest dollar.

                 2 Matching costs are for mOdifying and developing software

                      to execute matches. Figures                                are rounded to the nearest
                      dollar.
                 3 Costs figures are estimates based on previous matching

                      exper iences .




                                                                  n__.. .
,.
'--     ..
      . - ' ,.., u   _L.
                           ..
                                .L
                                     ,-- ---- -.",_ _--"   ......_..,--­




                                                                                 APPENDIX E       CONTINUED

                                                                                          SUMY OF         COSTS
                           Ma    tch                         Conversion 1                      Ma tching    2      Screening    Follow-up
                           DC PAl MD                                  $420                         $800              N/A           N/A
                           Wage, UCB

                           DC/SC PA                                   $150                       $2, 500    3        N/A           N/A
                           DC PAl                                     $150                       $2, 500             N/A           N/A
                           NC Wage,
                           UCB

                           DC PAl                                          N/A                       N/A             N/A           N/A
                           VA PA
                           Wage, UCB

                           IL PAl CA                             $3, 610                         $2, 740          $1, 270      $16, 360

                           IL UCB/                             Paid by                           $2, 990            $175           N/A
                           WI PA                           Wisconsin
                           IL PAl                                $1, 000                        Paid by           $2, 076         $375 4
                           WI PA,                                                             Wisconsin
                           UCB

                           NH PAl                                $3, 727                           $350              $34          $372
                           NH UCB


                           NH PAl                                $1, 193                           $620             . N/A          N/A
                           VT UCB





                                           1 Conversion costs are for modifying and developig computer

                                             programs and/or tapes for matching. Figures are rounded

                                             to the nearest dollar.

                                           2 Matching costs are for modifying and developing software
                                             to execute matches. Figures are rounded to the nearest
                                                 dollar.
                                           3 Cost figures are estimates based on previous matching

                                                 exper iences .
                                           4 Follow- up costs are for verification of PA match.

   ..
    __.     _.__._
          .A_
               , "   ...... ,.." .._--.-   ..,-   -_.. ....        -,-...   ....--_    -...-   --"--'----------.
1& '..




                                                                            APPENDIX E         CONTINUED

                                                                               SUMRY OF          COSTS
                      Match                              Conversion             Matching                 Screening FOllow-

                      NJ PA/NY                                $23 774                  312                 N/A       N/A

                      N.: PAl                                  $7, 7894               $935                 N/A       N/A
                      Penn. Wage

                       (System I)
                      NJ PAl                                       497           $8, 550                   N/A       N/A
                      Penn. Wage

                      (System II)


                      OK PAl                                      , 015          $5, 027                    , 628    N/A
                      TX PA

                      Wage , UCB

                      VA AFDC                                 $28 , 640                720                 $600      NjA
                      applicants/
                      VA Wage

                      UCB

                      WI PAl                                     521                   585                   $40     N/A
                      MN UCB 1

                     WI PAl                                      $21                  $105                   $87     N/A
                     MN UCB 2
                     WI PAl                                      $21             (Paid by                  $160      N/A
                     IL UCB                                                      IL)


                                             Conversion costs are for modifying and developing computer

                                             programs and/or tapes for matching. Figures are rounded to

                                             the nearest dollar.
                                             Matching costs are for modifying and developing softward to
                                             execute matches. Figures are rounded to the nearest
                                             dollar.
                                             New York. 

                                             Costs figure include $21 156 for New Jersey and $2

                                            4 Only Pennsylvania
                                                                                                                           618 for

                                                                              s costs are indicated.
.'   . .,




                                        APPENDIX E           CONTINUED



                                               SUMY              COSTS


            Ma   tch     Conversion 1                Ma tching   2       Screening FOllow-up
            WI PAl          $114                      $704                  $39      N/A
            Internet 1

            WI PAl          $114                       $46               $1, 068     N/A
            Internet 2

            WI PAl         $469 4                $6, 168                    N/A      N/A
            WI UCB

            WI PAllA     $1, 907    5           $2, 091                     $40
            PA 1
            WI PA/IA          $35 6                    $91                  $87
            PA 2
            WI PA/IL          $21               $3, 820                    $160

            WI PA/AL         $21                      $75                  $143

            WI PAlMS         $21                      $75                 $143

            WI FS/IN         $21                     $265                 $865


            1 Conversion costs are for modifying and developing computer

              programs and/or tapes for matching. Figures are rounded to

              the nearest dollar.
            2 Matching costs are for modifying and developing software to
              execute matches. Figures are rounded.
            3 Costs included $21 incurred by WI PA and $93 incurred by
              WI SESA.
            4 Costs include $426 incurred by WI PA and $43 incurred by
              WI SESA.
            5 Costs included $21 incurred by WI and $1,
                                                        886 incurred by

              IA PA agencies.

            6 Costs figures include $21 incurred by WI and $14 incurred 

              by IA PA agencies.

..   .'

                                 APPENDIX E (CONTINUED)

                                    SUMY OF      COSTS


          Ma   tch   Conversion 1    Ma tching   2       Screening Follow-up

          WI PAlIN         $21               $265                 162
          AFDC




          1 Conversion costs are for modifying and developing computer

            programs and/or tapes for matching. Figures are rounded to

           the nearest dollar. 

          2 Matching costs are for modifying and developing software to
            execute matches. Figures are rounded.
  ..   , "



                                                      APPENIX F
                                                   . REORTING FORM
I '­

                                                 Office of Inspector General

                                           Department of Health and Human Services

                                                 Standardized Formats project

                                                  Implementatio      of Formats


             Instructions: Form OIG I provides for the collection of data and

                                        This form is to be ' completed
             information on the resources and costs to convert         once and into

                                                                data extracts
             the standardized formats. 


             submitted to the OIG project Manager with the monthly report for the

             month in which all data bases have been converted into the

             .s tandard          i zed formts.
                                                             formats.
                 Provide the following data on resources required and costs to

                 convert data extracts into the standardized 

                                             Total Number
                                                                            Total
                                             of Staff Days Job Titles
                                                                            Costs
             Data Extract      Format Used



              AFDC/Food S tamp



              Non-PA Food

                   Stamp

               Medicaid


               Social Services




                Unemployment
                Insurance

                Wage


                 Other:




                                                                                      OIG I
                   APPENIX F (continued)

                                   -2­



Provide aggregate data on resources and costs to develop software

to implement the standardized formats.

Total Number

of Staff Days               Job Titles                 Total Costs





For each format implemented, list the data elements that were not

used.
                                                Data Element (s)
Data Extract                  Format Used          Not Used


AFDC/Food Stamp
Non-PA Food Stamp


Medicaid
Social Services


Unemployment Insurance


Wage
Other:


Attach a narrative discussing the reason (s) for not using the data

elements identified in (3) above.




List data elements that were added to the user defined areas in

each format.
Data Extract                    Format Used   Data Element (s) Added



AFDC/Food Stamp
                                                       OIG I

.'.   . ,

                                    APPENIX F   (continued)

                                      Office of Inspector General

                                Department of Health and Human Services

                                      Standardized Formats Project

                                            Match Activi ties

              Instructions: Form OIG II provides for the collection of data and

              information on the conduct, resources, and costs of match activities.

              ma tch. .

              Submi t the Form to the OIG Project Manager upon completion of each



              Identifying information


             . Type of Match
              Matching Agencies

              States involved in Match

                  To conduct this match:

                                                                          Yes

                     existing matching software was modified.


                      new matching software was developed.



                  Attach a narrative description of how the match was conducted and

                   include the following:
                        (a)	   Identify and discuss the logic for using specific edits
                               or screens in the match program to prioritize cases.

                        (b)	 Describe how you used the data elements that are
                           - predefined in the standardized formats.

                        (c)	   Include a flow chart of the match.


                  List the data files included in the match by       agency.

                         Agency                                 Data File





                                                                                OIG II

, "


                           APPENIX F   (continued)
. I 



                                           -2­

        Give the total number of input records read from each 

                                                               file.
                                         . Number of Records Read

            Data File



        AFDC/Food Stamp
        Non-PA Food stamp

        Medicaid
        Social Services

        Unemployment Insurance


        Wage

        Other:



                                                                match.   For
         Identify pre-edits used to eliminate records from the 

         example, records without SSNs.





         Gi ve the total number of raw hi ts from each file with the Social
                                                 set. If
                                                    this field was not used
         Security Number validation flag 

         record N/A.

             Data File                Number of Records with SSN Flag Set



         AFDC/Food stamp
         Non-PA Food Stamp


          Medica id


          Social Services


          Unemployment Insurance

                                                                OIG II
. ..   . ,

                                 APPENIX F   (continued)

                                                   -3­

                  Data File
                     Number of Records wi th   SSN Flag Set


              wage
              Other:


              Give the total number of raw hits from each file with the error

              prone f lag set.
                                                  Number of Records with the Error
                 Data File                        Prone Flag Set


              AFDC/Food Stamp
              Non-PA' Food Stamp
              Medicaid
              social Services


              Unemployment Insurance


               Wage
               Other:


               List any cr iter ia or screens used to pr ior i tize
                                                                      raw hits for
               follow-up.




                                                                                          hi ts
               Give the total number of cases referred for validation of raw 



                                                                              OIG II
, "



                               APPENIX F (continued)

                                              -4­

                                                               cost, by

      10. provide the following data on resources required and 

          task, to conduct this match.

                                      Total Number
                                                          Job Ti tle            Cost
               Task                   of Staff Days


           Wr i ting New
           Matching Software

           Modifying Existing
           Matching Software

           Developmental Costs


            Computer processing




            computer Charges

             (Include CPU Charges

            Only)
             Other:


                                      form:
       Individual completing the 

       Name:
        State Agency:


        Da te :


                                           Send To:    Jane Tebbutt
                                                       BHS/OIG
                                                       Room 5644
                                                       330 Independence   Avenue, S.
                                                                           20 ' 201
                                                       Washington, D.




                                                             OIG II

 , .

- ..    . "




                                     APPENIX F (continued)


                                     Office of Inspector General

                               Department of Health and Human Services

                                     Standardized Formats project


                       Match Results -- Verification, Review and Fo11ow-u



              Instructions: Form OIG III provides  for the collection of data on the

                                                hits, and resources and costs

              verification and follow-uP of raw               on each match , to the

                                                   Submit a form,

              associated with the activities.
              OIG project Manager with the final
                                                 report.
                  Attach a narrative describing the process used to verify, review

                  and follow-uP on raw hits.





                  Provide, by task, the , following        data on resources required and
                                                                           hits.
                  costs to verify, review and follow-uP on raw 

                                    Total Number                                   Total Costs
                                    of Staff Days                    Job Title
                    Task




                   Indicate the number of cases referred for review and verification

                   from each file used in the match.

                                                      Number of cases referred

                       Data File



                   AFDC/Food Stamp
                    Non-PA Food stamp


                    Medicaid
                    Social Services

                    Unemployment Insurance

                                                                                   OIG III

,. .
-

                               APPENIX F   (continued)

                                              -2­

                                                    Number of cases referred

            Data File



         wage
         Other:


         * As a result of the review and follow-up activities how many

           cases:
            were reviewed


            required grant adjustments

            -- benef its reduced


            -- benef its      increased

             were terminated
                had evidence to support a question of fraud and were referred

                for investigation



          If only a sample of the cases referred for follow-up were

          reviewed, state rationale and how sample was drawn.





          * Indicate the number of cases involved and the total dollar

            amount of:

             overpayments identified:

                  -- cases


                   -- dollars


                 fines and penalties assessed:

                   -- cases


                   -- dollars

                                                                         OIG III

, .
.   .   . ':


                                              APPENDIX F   (continued)

                                                               -3­


                            ettlements and judgments rendered:

                             -- cases


                             -- dollars


                            resti tutions (money     recovered):


                              -- cases


                              -- dollars


                      * Figures provided will reflect totals/amounts as of date of

                           report.
                      Indicate projected savings from the match

                                     Ma tch                              Projected Savings





                      Describe the methodology used to arrive at the projected 

                                                                                       savings.




                   Individual completing the form provide the information requested

                   below.
                   Name:
                   State Agency:


                   Date:




                                                                                    OIG III

 '. .
, "     . )




               APPENIX F   (continued)

                               -4­

                           Send to:      Jane Tebbutt
                                         HHS/OIG
                                         Room 5644
                                         330 Independence   Avenue, S.
                                         Washington, D.      20 201




                                                              o IG I I I
. ,
   .. ,. - ,------- - '   ~~~   -------                    '.
                                                --_'_ -_"_- --- -   :._-- -- '-.'- --- -   ---- -_. -




                                                                            APPENDIX G


                                                            state proj ect                              Leaders

                Francis Brighton

                New Hampshire Division of Welfare

                Hazen Drive
                Concord , New Hampshire                         03301
                Phone: (603)                  271-4262

                John FedynyshYn
                New Jersey Department of Human Services
                Division of Public Welfare
                Systems Analysis and Development ' Unit
                 CN
                 Trenton
                         716 
       , New Jersey 08625
                 Phone: (609)                 588-2314

                 Sally Ferguson

                 Illinois Department of Public Aid

                 Bureau of Research and Analysis

                 316 South Second Street

                 Springfield ,                Illinois 62762
                 Phone: (217)                 782-1128

                  Larry Harrison
                  Department of Social Servic

                  Fraud and Aud1 ts Branch

                  744 P Street , MS 19­

                  Sacramento ,
                             California 95814
                  Phone: (916) 924- 2828
                  Karl Hauser

                  Department of Soci al Services

                  Bureau of Data Systems

                  8004 Franklin Farms Road

                  Richmond ,              Virginia 23288
                  Phone: (804)                 281-9358

                 Bill Long

                 Department of Human Services

                 Office of Inspector General

                 Audi t and Review Division

                . P. O. Box 25352
                   Oklahoma City, Oklahoma 73125
                   Phone: (405)                424-5880

                   Kenneth Shimota

                   Department of Health and Social                                                 Services

                   Bureau of Economic Assistance

                   P. O. Box 7851

                   1 West Wilson -- Room 384

                   Madison , Wisconsin

                   Phone:   (608) 266- 0606

'f .. ,





                                   APPENDIX G   (continued)
           Clayton Vickland
           Department of Human Services

           Randall School -- Room 223

           First and I street, S . W .
           Washington ,   D. C. 20024
           Phone: (202)     727-5041
